                                                                 ~ SECV
                                                                ~C;
                                                                 ~~
                                                                W/'ts~~
                                                                \    1IIIIII~#
                                                                    ~IST\1J'

                                                  SOOAL             SECURITY
                                                  Office   of the Inspector       General
MEMORANDUM

Date:                                                                                             Refer To:
        September   18,2001
        Laurie Watkins
To:     Acting     Regional      Commissioner
            for Philadelphia


From:   Inspector General


Subject: Payments       Made      to Selected     Representative         Payees    after the Deaths   of Social   Security
        Beneficiaries         (A-13-0   1-21028    )



        The attached is a copy of our final report that conveys the results of our subject review.
        The objectives of our review were to:

        .      Provide an accounting for all benefit payments issued and recoveries made on
               behalf of 33 Social Security beneficiaries after their deaths.

        .      Determine whether there was potential fraud and/or misuse related to any benefit
               payments made after beneficiaries' deaths.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




        Attachment
            OFFICE OF

     THE INSPECTOR GENERAL


 SOCIAL SECURITY ADMINISTRATION



     PAYMENTS MADE TO SELECTED
    REPRESENTATIVE PAYEES AFTER
        THE DEATHS OF SOCIAL
       SECURITY BENEFICIARIES

   September 2001   A-13-01-21028




 MANAGEMENT

ADVISORY REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        Executive Summary
OBJECTIVES
Our objectives were to:

•	 Provide an accounting for all benefit payments issued and recoveries made on
   behalf of 33 Social Security beneficiaries after their deaths.

•	 Determine whether there was potential fraud and/or misuse related to any benefit
   payments made after beneficiaries’ deaths.

BACKGROUND

In September 1999, the U.S. Attorney for the District of Columbia established the Group
Homes Task Force to respond to concerns about the sufficiency of care given to
individuals living in group home settings in the District of Columbia. One area of the
Group Homes Task Force’s investigation focused on individuals who died while in a
group home setting. This included group home residents who were receiving benefits
from the Social Security Administration (SSA) at the time of their death.

SSA appointed the District of Columbia’s Department of Human Services (DHS) as a
representative payee (Rep Payee) for those SSA beneficiaries judged incapable of
managing or directing the management of their benefits. As such, DHS receives and
manages payments for as many as 13,500 SSA beneficiaries. The Bureau of
Payments and Collections (BPC), a component of the District’s Chief Financial Office,
receives and processes the monthly SSA benefit payments issued to DHS on behalf of
these beneficiaries. BPC also maintains a ledger system that tracks payments received
and expenses incurred for each SSA beneficiary.

In support of the Group Homes Task Force’s investigation, we provided investigative
and audit assistance related to benefit payments made to DHS for 26 SSA beneficiaries
and to other Rep Payees for 7 beneficiaries who resided at group homes at the time of
their deaths.

RESULTS OF REVIEW

We accounted for payments and payment-related recoveries made after the deaths of
33 beneficiaries. Although we did not identify specific instances of fraud and/or misuse,
we identified several conditions that increased the risk of misuse of payments made
after a beneficiary’s death. Specifically, we found the following.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)   i
•   Overpayments of $7,449 made to DHS were written off.

•   Group home providers did not return unspent beneficiary funds to the Rep Payee.

•   Rep Payee financial records were not accurate.

•   Beneficiaries’ deaths were not reported timely.

•   Dates on death certificates and SSA’s payment records did not always match.

CONCLUSIONS AND RECOMMENDATIONS
Although we did not detect fraud and/or misuse, there are several conditions that
warrant SSA regional management’s immediate attention. These conditions increase
the risk of misuse of payments made after a beneficiary’s death by Rep Payees or
others. We recommend that SSA:

1. 	 Collect the $7,449 in overpayments made to DHS that were deemed uncollectible
     and written off.

2. 	 Work with DHS to identify and recover all unspent allowances that group home
     organizations accumulated so the related funds can be appropriately distributed.

3. 	 Require that DHS correct inaccurate, incomplete, inconsistent, and misleading
     information in its beneficiary ledger accounts and develop and implement
     procedures to ensure the receipt and disbursement of funds are properly recorded.

4. 	 Remind DHS of its responsibilities as a Rep Payee to report all beneficiary deaths
     by the 10th day of the month following a beneficiary’s death.

5. 	 Resolve beneficiary date-of-death discrepancies we identified and develop and
     implement procedures for the timely and accurate recordation of dates of death.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix A for the full text of SSA’s
comments.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)   ii
                                                               Table of Contents

                                                                                                                        Page

INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 3


Accounting for Payments and Recoveries ............................................................. 3


Overpayments Made to Department of Human Services Were Written off ........... 4


Group Home Providers Did Not Return Unspent Beneficiary Funds to the

Representative Payee ........................................................................................... 5


Representative Payee Financial Records Were Not Accurate .............................. 6


Beneficiaries’ Deaths Were Not Reported Timely ................................................. 8


Dates On Death Certificates and SSA Payment Records Did Not Always

Match ..................................................................................................................... 9



CONCLUSIONS AND RECOMMENDATIONS .................................................... 10


APPENDICES


Appendix A – Agency Comments
Appendix B – OIG Contacts and Staff Acknowledgments




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)
                                                                    Acronyms

 BPC               Bureau of Payments and Collections


 DHS               Department of Human Services


 SSA-623           Representative Payee Report


 MBR               Master Beneficiary Record


 Rep Payee         Representative Payee


 SSA               Social Security Administration


 SSR               Supplemental Security Record





Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)
                                                                Introduction

OBJECTIVES

Our objectives were to:

•	 Provide an accounting for all benefit payments issued and recoveries1 made on
   behalf of 33 Social Security beneficiaries after their deaths.

•	 Determine whether there was potential fraud and/or misuse related to any benefit
   payments made after beneficiaries’ deaths.

BACKGROUND

In September 1999, the U.S. Attorney for the District of Columbia established the Group
Homes Task Force to respond to concerns about the sufficiency of care given to
individuals living in group home settings in the District of Columbia. One area of the
Group Homes Task Force’s investigation focused on individuals who died while in a
group home setting. This included group home residents who were receiving benefits
from the Social Security Administration (SSA) at the time of their death.

SSA appointed the District of Columbia’s Department of Human Services (DHS) as a
representative payee (Rep Payee) for those SSA beneficiaries judged incapable of
managing or directing the management of their benefits. As such, DHS receives and
manages payments for as many as 13,500 SSA beneficiaries. The Bureau of
Payments and Collections (BPC), a component of the District’s Chief Financial Office,
receives and processes the monthly SSA benefit payments issued to DHS on behalf of
these beneficiaries. BPC also maintains a ledger system that tracks payments received
and expenses incurred for each SSA beneficiary.

In support of the Group Homes Task Force’s investigation, we provided investigative
and audit assistance related to benefit payments made to DHS for 26 SSA beneficiaries
and to other Rep Payees for 7 beneficiaries who resided at group homes at the time of
their deaths.




1
 Recovery of overpayments are made by either direct repayment by the Rep Payee or return check
actions processed by the U.S. Department of the Treasury.


Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)         1
SCOPE AND METHODOLOGY
The Office of the Inspector General’s Office of Investigations identified 33 SSA
beneficiaries who died in a group home setting and had payments issued to Rep
Payees after their deaths. Of these, DHS served as the Rep Payee for
26 beneficiaries, and non-governmental entities were the Rep Payee for the remaining
7 beneficiaries. We reviewed these cases to provide an accounting for all payments
and recoveries made after the beneficiaries’ deaths. For all beneficiaries, we reviewed
the payment and recovery data SSA maintained. In addition, we examined beneficiary-
related financial information BPC maintained.

We identified, obtained, and examined the following information for the 33 Social
Security beneficiaries.

•     Death certificates.

•	 SSA Master Beneficiary Records (MBR),2 Supplemental Security Records (SSR),3
   Payment History Update System records, and beneficiary Numidents (that is,
   records pertaining to Social Security numbers).

•	 DHS documents including individual beneficiary ledgers, repayment documentation,
   and internal memorandums.

•     SSA-generated documents and memorandums.

•     Laws, regulations, and policies relevant to the cases under investigation.

We also conducted interviews with DHS and BPC personnel in Washington, D.C., and
SSA personnel in Philadelphia, Pennsylvania.

We performed this review from April through September 2000.




2
  The MBR is an electronic file containing information related to beneficiaries that receive benefits under
the Old-Age and Survivors Insurance and/or Disability Insurance programs.
3
    The SSR is an electronic file containing information related to Supplemental Security Income recipients.


Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)                       2
                                               Results of Review

We accounted for payments and payment-related recoveries made after the deaths of
the 33 beneficiaries in our review. Although we did not identify specific instances of
fraud and/or misuse, we identified several conditions that increased the risk of misuse
of payments made after a beneficiary’s death. Specifically, we found SSA wrote off
certain overpayments made to DHS, group homes did not return unspent beneficiary
funds to the Payee, DHS did not maintain accurate financial records, DHS did not
report beneficiaries deaths timely, and SSA did not resolve beneficiary dates of death
discrepancies.

                                    Based on our review of the payments issued and
    Accounting for Payments         recoveries made for 33 SSA beneficiaries, we
    and Recoveries                  determined the following.


•	 For 30 beneficiaries, $32,140 in payments was made to Rep Payees after their
   deaths.

     -	 DHS was the Rep Payee for 24 of the 30 beneficiaries and received $27,009 in
        payments after their deaths. Of this, SSA recovered $17,602 and wrote off
        $7,449 as uncollectible. There was an outstanding overpayment balance of
        $1,958 due from DHS to SSA.

     -	 Non-governmental entities were the Rep Payees for the six remaining
        beneficiaries. These entities received $5,131 in payments after the beneficiaries’
        deaths. Of this, SSA recovered $4,691 and wrote off $4404 as uncollectible.

•	 No payments were made after death for three beneficiaries. DHS was the Rep
   Payee for two of the beneficiaries, and a non-governmental entity was the Rep
   Payee for the third beneficiary. Benefits for these individuals had been terminated
   before their death for other reasons.

•	 SSA records show $780 in underpayments for five beneficiaries. DHS was the Rep
   Payee for all five individuals.




4
 We did not determine whether the overpayment write-offs of $440 to non-governmental entities were
appropriate.


Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)             3
                                An SSA overpayment is the total benefit amount paid to,
Overpayments Made to            or on behalf of, an individual that exceeds the total
Department of Health            amount that should have been paid. A payment issued
Services Were Written off       to a Rep Payee after a beneficiary’s death constitutes
                                an overpayment. After a beneficiary’s death has been
reported, SSA sends a letter to the Rep Payee to inform the Payee an overpayment
has been made. Included in the letter is a request to repay the overpaid amount. The
Rep Payee is required to repay to SSA all such payments made after death.

In determining whether to write off overpayments, SSA should consider the following:

•     individual fault,5
•     defeat the purpose of the program,6
•     whether recovery would be against “equity and good conscience,”7
•	 the Payees present and prospective ability to repay the debt within a reasonable
   time,8 and
•	 whether adjustment or recovery would impede efficient or effective administration of
   the title XVI program due to the small amount involved.9

Of $27,009 in overpayments made to DHS after the beneficiary’s death, we identified
$7,449 that SSA wrote off as uncollectible. The overpayments that were written off
involved payments made after the deaths of eight beneficiaries.

Our review of the eight cases showed that seven were for overpayments of less than
$500. SSA sent reminder notices requesting repayment of the overpayments.
However, SSA stopped sending the notices when DHS did not respond. The remaining
overpayment resulted in a $5,600 write-off. SSA did not send a notice informing DHS
of the $5,600 overpayment.

While writing off overpayments made to a governmental Rep Payee may be in
accordance with SSA policy, it may not be prudent, since it is highly probable the
overpayment will be recovered within a reasonable period of time. Furthermore, the


5
    20 C.F.R. §§ 404.506, 404.507, 416.550 and 416.552.
6
  20 C.F.R. §§ 404.506, 404.508, 416.550 and 416.553. For example, to deprive the person of income
required for ordinary and necessary living expenses.
7
 20 C.F.R. §§ 404.506, 404.509, 416.550 and 416.554. For example, if the individual changed his or her
position for the worse or relinquished a valuable right because of reliance upon a notice that payment
would be made.
8
    20 C.F.R. § 404. 515(a), (c).
9
    20 C.F.R. § 416.555.


Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)                 4
governmental entity, as a Rep Payee, has a fiduciary duty to SSA, as well as the
beneficiary, to properly account for all beneficiary financial activity.

We requested SSA to review the propriety of those write-offs. However, we believe it is
unlikely that proper application of the criteria set forth above would result in write-offs
for these cases. In addition, BPC beneficiary ledgers indicated the overpayments had
not been spent and were available for repayment to SSA. Therefore, it appears SSA
inappropriately wrote off $7,449 in recoverable overpayments.

                                 SSA requires that group home providers set aside
Group Home Providers Did         $35 in benefit payments each month to meet a
Not Return Unspent               beneficiary’s personal needs. Therefore, $35 of each
Beneficiary Funds to the         benefit payment is credited to the beneficiary’s
Representative Payee             personal allowance account. DHS matches this
                                 amount. That is, $70 is credited to the beneficiaries’
personal allowance account. On behalf of DHS, BPC forwards these funds to the group
home where the beneficiary resides. The remaining benefit payment is credited to the
beneficiary’s cost-of-care account to offset the cost of the beneficiary’s care.

BPC maintains individual ledgers to account for SSA beneficiary personal allowance
funds. At the request of a beneficiary’s group home, subject to the approval of a
beneficiary’s caseworker, BPC issues group home organizations a $210 payment each
quarter, representing a 3-month beneficiary personal allowance. The group home is
required to maintain accounting records that reflect how the payments were used.

We identified eight instances where group home providers received personal allowance
funds from BPC after a beneficiary’s death or hospitalization. Our review of BPC
accounting records showed that quarterly allowance payments were made to group
home providers after the deaths of seven beneficiaries. An allowance payment was
made to a group home for another beneficiary during the 6 weeks the beneficiary was
hospitalized before death. We found that two group homes repaid the beneficiary
allowance payments received after death. However, in the remaining six cases, there
was no evidence in BPC ledgers the group homes repaid the allowances.

BPC lacks procedures for recovery of funds from group homes after the beneficiary’s
death. BPC personnel acknowledged the absence of procedures to ensure that BPC
recovers personal allowance overpayments after the beneficiaries’ deaths.

We also learned that BPC does not have procedures to ensure that group homes return
unspent beneficiary allowances that have been accumulated at the time of a
beneficiary’s death. Our review of 24 BPC beneficiary ledgers showed that group
homes had remitted unspent allowances for only 4 beneficiaries. The group homes
were holding the unspent funds at the time of the beneficiaries’ deaths. For the
remaining 20 beneficiaries, there was no indication in BPC ledgers the group homes
had returned unspent allowances to BPC.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)   5
DHS, as Rep Payee, is responsible for accumulating and accounting for all beneficiary
assets at death for purposes of making a lawful distribution. The lack of internal
accounting controls in this area has resulted in a condition where group homes
regularly retain unspent personal allowances of SSA beneficiaries who have died.

                           Each year, SSA mails the Rep Payee Report, Form SSA-
Representative Payee       623 (SSA-623), to Rep Payees. The Rep Payee is
Financial Records Were supposed to complete the SSA-623 by providing information
Not Accurate               about the management of payments issued to the Rep
                           Payee on behalf of a beneficiary during the prior 12-month
reporting period. The report elicits such information as the following:

•	 whether the beneficiary lived with the same person or in the same institution during
   the reporting period,

•   use of benefits for the reporting period,

•	 whether benefit payments were saved and the method used for investing those
   savings, and

•   whether the Payee was convicted of a felony during the reporting period.

The Rep Payee is required to maintain a system of records that accurately supports the
information furnished on the SSA-623. Caseworkers within the Mental Retardation
Developmental Disabilities Administration, a component of DHS, complete the SSA-623
for those beneficiaries for whom DHS is the Rep Payee. Caseworkers use information
from the group home providers and BPC to complete the SSA-623.

Our review showed that DHS was not meeting its responsibility to properly account for
and accurately report all financial activity involving SSA beneficiaries. The beneficiary
ledgers BPC maintained were inaccurate, incomplete, and inconsistent. Therefore,
DHS was not provided with reliable information to complete the SSA-623. In addition,
BPC records of repayments made to SSA were misleading and resulted in erroneous
information in beneficiary ledgers.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)    6
      BPC’s beneficiary ledgers were inaccurate and incomplete. The beneficiary
ledgers did not reflect all financial activity that occurred for 5 of 24 beneficiaries. During
our examination of BPC beneficiary case file documentation, we found evidence that
funds were remitted to BPC after the deaths of two beneficiaries. However, when we
examined the respective beneficiary ledgers, we found no entries for the remittances.
We also identified three DHS overpayment remittances that were made to SSA that
were not reflected in the affected beneficiaries’ ledgers. All of these errors impact the
accuracy of the information reported on the SSA-623s.

       BPC’s beneficiary ledgers were not consistently maintained. We found gaps in
the accounting information in 8 of the 24 ledgers BPC provided for our examination.
For example, one ledger showed financial activity until December 1994 and no
transactions in 1995. The next entry in the ledger, was dated January 1996. While the
beneficiary ledger showed no activity for 1995, other BPC and SSA records showed the
beneficiary payments were issued from January through July 1995.

        Supporting documents of BPC’s remittances to SSA were erroneous. BPC
provided us with various documents (revenue refund vouchers, refund request
memorandums, refund/release memorandums, etc.) as evidence that overpayments
had been repaid to SSA. In two instances, the documents appeared authentic, as they
were essentially the same as other documents we examined to verify repayments made
to SSA. However, when we examined SSA records, we found the two repayments,
totaling $1,050, were not reflected in SSA records. We requested front and back
copies of the two canceled checks to confirm the repayments actually occurred. BPC
informed us that the District’s Treasury Department never issued the checks. In one
case, the beneficiary’s ledger showed an entry that reflected a fictitious repayment to
SSA that was supported by the erroneous documents. BPC reduced this beneficiary’s
ledger balance by the amount of the fictitious repayment.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)     7
                         Rep Payees are responsible for promptly notifying SSA of
Beneficiaries’ Deaths any event that affects the amount of benefits they receive or
Were Not Reported        the right to receive benefits. Rep Payees must promptly
Timely                   report a beneficiary’s death to SSA because death terminates
                         a beneficiary’s eligibility for benefits. SSA requires Rep
Payees to report the death by the 10th day of the month following the beneficiary’s
death.10

Based on our review of MBR, SSR, and death certificate information, we found that
30 of 33 beneficiaries’ records contained date-of-death information. Of the 30 records
that contained date-of-death information, 29 contained death information that was
reported 30 days or more after the beneficiary’s death.

DHS was the Rep Payee for 24 of these 30 beneficiaries. The elapsed number of days
until DHS reported a death to SSA, for 23 of the 24 beneficiaries, ranged from 29 to
1,113 days. In one case, DHS did not report the beneficiary’s death to SSA until
1,113 days after the death had occurred. Nine other beneficiary deaths were not
reported to SSA until 180 days or longer after death had occurred.

When we inquired as to why the reporting delays occurred, DHS personnel informed us
that BPC requires a death certificate before it reports a beneficiary’s death to SSA.
While this practice could explain some of the delays, it does not sufficiently address the
case where one beneficiary’s death was reported to SSA 1,113 days after the
beneficiary died and the nine other beneficiary deaths that were not reported until
180 days or longer after death. When DHS eventually reported the deaths, SSA
processed the information without delay.

Delays in reporting beneficiary deaths also occurred for all six beneficiaries who had a
non-governmental Rep Payee. The elapsed number of days before beneficiary deaths
were reported to SSA ranged from 34 to 212 days. We did not contact the non-
governmental Rep Payees involved to determine why the delays occurred.

The delays in Rep Payees reporting beneficiaries’ deaths resulted in $32,140 in benefit
overpayments for 30 of 33 beneficiaries. As a result, SSA has unnecessarily incurred
additional expense in tracking and attempting to recover the overpayments made to
these Rep Payees.




10
     20 C.F.R. § 416.714 (a).



Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)   8
                            After an individual becomes entitled to SSA benefits, SSA
Dates on Death              must accurately record any changes in circumstances that
Certificates and SSA        affect eligibility to ensure the correct payment of benefits.
Payment Records Did         The reliability of SSA’s payment records (for example, MBR
Not Always Match            and SSR) depends on timely input of accurate information
                            reflecting changes in beneficiaries’ circumstances. This
includes the recording of beneficiaries’ deaths.

During our review of SSA records for 33 beneficiaries, we found the date of death
information for 13 beneficiaries did not agree with the death information on the
respective death certificates. The comparison of death certificates to date of death
information on the MBR and SSR records showed date of death discrepancies for 10
beneficiaries. Our comparison revealed the following.

For six beneficiaries, the date of death recorded on the death certificates differed from
1 to 5 months from the dates recorded in SSA’s records. Therefore, these
discrepancies affected the amount of benefits payable on behalf of the beneficiaries.

   -	 In five of these cases, the death certificate showed a date of death earlier than
      the date of death on the SSR. In four of those cases, SSA’s records incorrectly
      showed underpayments, when in fact overpayments occurred. In one case,
      payments were issued after death. However, the Department of the Treasury
      recovered the payments.

   -	 In one case, the death certificate had a date of death 1 month later than the date
      of death on the SSR. If the death certificate is correct, an underpayment is
      payable to the beneficiary’s estate.

•	 For four beneficiaries, the date-of-death discrepancy had no effect on payments
   because the differences were within the same month.

For three beneficiaries, our comparison of death certificates to the death information on
the MBR and SSR records showed that SSA did not have any date-of-death information
recorded. Fortunately, there were no overpayments made on behalf of these
beneficiaries because their benefits had been previously terminated.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)    9
                                                    Conclusions and
                                                   Recommendations

Although we did not detect fraud and/or misuse, there are several conditions that
warrant the immediate attention of SSA regional management. These conditions
increase the risk of misuse of payments made after the death of a beneficiary by Rep
Payees or others. We recommend that SSA:

1. 	 Collect the $7,449 in overpayments made to DHS that were deemed uncollectible
     and written off.

2. 	 Work with DHS to identify and recover all unspent allowances that group home
     organizations accumulated so the related funds can be appropriately distributed.

3. 	 Require that DHS correct inaccurate, incomplete, inconsistent and misleading
     information in its beneficiary ledger accounts and develop and implement
     procedures to ensure the receipt and disbursement of funds are properly recorded.

4. 	 Remind DHS of its responsibilities as a Rep Payee to report all beneficiary deaths
     by the 10th day of the month following a beneficiary’s death.

5. 	 Resolve beneficiary date-of-death discrepancies we identified and develop and
     implement procedures for the timely and accurate recordation of dates of death.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix A for the full text of SSA’s
comments.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)   10
                                             Appendices





Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)
                                                                            Appendix A


Agency Comments





Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)
                               SOCIAL SECURITY

MEMORANDUM


Date:    August 24, 2001

To:	     James G. Huse Jr.
         Inspector General


From:    Laurie Watkins
         Acting Regional Commissioner
         Philadelphia Region

Subject: Payments Made to Selected Rep Payees After the Deaths of Social Security Beneficiaries
         (A-13-01-21028)

         Attached are our comments on the draft report. We appreciate the opportunity to provide
         our views. If you wish to discuss the draft report, please call me at 215-597-5157.




                                             Laurie Watkins

  Attachment
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PAYMENTS MADE TO SELECTED REP PAYEES AFTER THE DEATHS
OF SOCIAL SECURITY BENEFICIARIES (A-13-01-121028)”

We appreciate the opportunity to respond to your recommendations in this draft report. The
region has already begun an aggressive approach, in partnership with the District of Columbia
Department of Human Services (DCDHS), to address areas of vulnerability within the
representative payee program.

 Recommendation 1

   Collect the $7,449 made to DHS that were deemed uncorrectable and written off.

 Philadelphia Region Comment

   We agree and will be working with DCDHS to have the unspent funds returned to SSA.

 Recommendation 2

   Work with DHS to identify and recover all unspent allowance that group home organizations
   accumulated so the related funds can be appropriately distributed.

 Philadelphia Region Comment

   We have already begun to address with DCDHS the need for adequate internal accounting
   controls over unspent personal allowances of SSA beneficiaries who have died.

 Recommendation 3

   Require that DHS correct inaccurate, incomplete, inconsistent and misleading information in
   its beneficiary ledger accounts and develop and implement procedures to ensure the receipt
   and disbursement of funds are properly recorded.

 Philadelphia Region Comment

   We agree that appropriate corrective action must be taken by DCDHS and will work with
   them to ensure that the controls put in place are adequate to safeguard that beneficiary funds
   are being properly accounted for.

 Recommendation 4

   Remind DHS of its responsibilities as a Rep Payee to report all beneficiary deaths by the 10th
   days of the month following a beneficiary’s death.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)        A-2
 Philadelphia Region Comment

   We agree that reminders are necessary. The importance of timely and accurate reporting of
   all changes which affect payment has been emphasized to DCDHS every time the local field
   office management meets with the DCDHS officials and will continue to be a discussion
   topic at future meetings.

 Recommendation 5

   Resolve beneficiary date-of-death discrepancies we identified and develop and implement
   procedures for the timely and accurate recordation of dates of death.

 Philadelphia Region Comment

   We have already begun to correct the records containing date of death discrepancies and will
   review the procedures DCDHS has implemented to insure compliance with our regulations
   and to prevent future occurrences of this nature.




Payments to Rep Payees After the Deaths of Social Security Beneficiaries (A-13-01-21028)     A-3
                                                                       Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

    Jim Klein, Audit Manager (410) 965-9739


Acknowledgments
In addition to those named above:

    Harold Hunter, Auditor-in-Charge

    Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-01-21028.
                        DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders                                                         25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1
Total                                                                        97
              Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether SSA’s
financial statements fairly present the Agency’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness
of SSA’s programs. OA also conducts short-term management and program
evaluations focused on issues of concern to SSA, Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                             Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
